                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS


                                  CLOSEOUT MEMORANDUM

Case Number: A04010003
                                                                  11        Page 1of 1
                                                                                            11
    In January 20004, we became aware of the subject's1 CV, which was submitted to
    another agency,2 in which he listed a pending NSF 'grant',3 in addition to numerous
    other grants, including some international ones. We were notified because the NSF
    'grant' listed on the CV was never funded. We notified the relevant agency about
    the error in the CV. We reviewed the Biosketches and Current and Pending
    Support (CPS) statements in the PI'S submissions to NSF and discovered several
    inaccuracies, inconsistencies, and omissions in the subject's CPS forms.
    The subject did not liscany grants on his Biosketches in his NSF proposals. On his
    CPS forms, the subject did not list any of the grants from foreign organizations that
    appeared on his CV. Even for the listings of proposals to NSF, the information was
    often inaccurate and inconsistent from proposal to proposal, indicating the subject
    did not carefully prepare his CPS forms. Additionally, the subject's earlier
    submissions, when he was a postdoctoral researcher and new faculty, were the most
    incomplete and inaccurate, demonstrating he was more careful as he became more
    experienced. We sent the subject a letter reminding him of the importance of
    ensuring the accuracy and completeness of CPS statements and NSF's standards of
    scholarship apply to the whole proposal. Accordingly, this case is closed.




       1 (footnote redacted).
           NIH.
       3   (footnote redacted).
